 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


      Agreed-upon Procedures on DHS’ 

       3rd Quarter Intragovernmental 

            Activity and Balances 





OIG-07-78                September 2007
Report Distribution

Department of Homeland Security

Secretary
Deputy Secretary
General Counsel
Chief of Staff
Deputy Chief of Staff
Executive Secretariat
Under Secretary, Management
Chief Information Officer
Chief Financial Officer
Chief Information Security Officer
Assistant Secretary, Public Affairs
Assistant Secretary, Legislative Affairs
Assistant Secretary, Policy
DHS Audit Liaison
Chief Information Officer, Audit Liaison

Office of Management and Budget

Chief, Financial Standards and Grants Branch
  Office of Federal Financial Management
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Department of Treasury

Director, Financial and Budget Reporting Directorate,
 Financial Management Services
Director, Financial Reporting Division, Financial Management Services

Governmental Accountability Office

Congress

Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
